CERTIFICATE OF SERVICE
The original and two copies have been filed via U.S. Mail, to the Clerk of the
Court, Supreme Court of the United States 1 First Street, NE Washington, DC
20543, October 9, 2019. A copy of this application was served by U.S. mail to the
Florida Bar counsel of record listed below, in accordance with Supreme Court Rule
22.2 and 29.3.
M. Hope Keating
GREENBERG TRAURIG, P.A.
101 East College Avenue
Tallahassee, FL 32301

!>

Marie Henry
P. 0. Box 953521
Lake Mary, FL 32795-3521
Office No: (704) 737-1935
libertyjustice2012@gmail.com

10

